No. 19-496

In the Supreme Court of the United States
DISH NETWORK L.L.C.,
Petitioner,
v.
THOMAS H. KRAKAUER,
on behalf of a class of persons,
Respondent.
On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Fourth Circuit
SUPPLEMENTAL BRIEF FOR RESPONDENT
JOHN W. BARRETT
BRIAN A. GLASSER
BAILEY & GLASSER LLP
209 Capitol Street
Charleston, WV 25301
(304) 345-6555

DEEPAK GUPTA
Counsel of Record
JONATHAN E. TAYLOR
GUPTA WESSLER PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com

Counsel for Respondent
November 19, 2019

-1SUPPLEMENTAL BRIEF FOR RESPONDENT
Our brief in opposition explains why the decision
below does not conflict with Salcedo v. Hanna, 936 F.3d
1162 (11th Cir. 2019)—the only case on which Dish relies
for its alleged split. Three days after we filed our brief,
the Eleventh Circuit eliminated any doubt on this score.
See Cordoba v. DIRECTV, — F.3d —, 2019 WL 6044305,
*6 (11th Cir. Nov. 15, 2019). It did so in a case involving
TCPA claims based on a failure to maintain an internal
do-not-call list, which are much more like the claims here
than the single text-message claim in Salcedo. Like the
court below, the Eleventh Circuit agreed with Susinno v.
Work Out World Inc., 862 F.3d 346 (3d Cir. 2017), and
held that “[t]he receipt of more than one unwanted
telemarketing call made in violation of the provisions
enumerated in the TCPA is a concrete injury that meets
the minimum requirements of Article III standing.” 2019
WL 6044305, at *6; see also id. at *11. The Eleventh
Circuit explained that its earlier decision in Salcedo—
which “focused heavily on the unique features of text
messages” and “expressly distinguished receiving a text
message from receiving an unwanted phone call”—
supports this holding. Id. at *6. “As we recognized in
Salcedo, a phone call intrudes upon the seclusion of the
home, fully occupies the recipient’s device for a period of
time, and demands the recipient’s immediate attention.”
Id. “This is enough to establish the injury in fact prong of
standing for [the named plaintiff] and all of the absent
class members who received [unlawful] calls.” Id.
The class in this case fits that description. It includes
only people who received calls to a residential number of
the do-not-call registry, in violation of the TCPA, and the
jury so found. The decision below is thus plainly in
harmony with Eleventh Circuit precedent.

-2CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
JOHN W. BARRETT
BRIAN A. GLASSER
BAILEY & GLASSER LLP
209 Capitol Street
Charleston, WV 25301
(304) 345-6555

DEEPAK GUPTA
Counsel of Record
JONATHAN E. TAYLOR
GUPTA WESSLER PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com

Counsel for Respondent
November 19, 2019

